t=
I

C@OCKLE

Legal Briefs

Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

No. 20-303

UNITED STATES OF AMERICA,
Petitioner,
v.
JOSE LUIS VAELLO-MADERO,
Respondent.

CERTIFICATE OF COMPLIANCE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF THE
COMMONWEALTH OF PUERTO RICO AS AMICUS CURIAE IN SUPPORT OF

RESPONDENT in the above entitled case complies with the typeface requirement of Supreme

Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point

for the footnotes, and this brief contains 5791 words, excluding the parts that are exempted by

Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 9th day of November, 2020.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

My Comm. Exp. September 5, 2023

 

GENERAL NOTARY State of Nebraska wv Chk
RENEE J. GOSS 9. Qu draw :
Notary Public

Affiant

40264
